1900 K Street, NW
Washington, DC 20006-1110
+1 202 261 3300 Main
+1 202 261 3333 Fax
www.dechert.com

Dechert
LLP

MICHAEL H. MCGINLEY
michael.meginley@dechert.com
+1 202 261 3378 Direct
+1 202 261 3333 Fax

January 14, 2020
VIA E-FILE AND HAND DELIVERY
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, Northeast
Washington, D.C. 20543
Re: Wexford Health, et al. v. Kareem Garrett, No. 19-867
Dear Mr. Harris:
I represent Respondent Kareem Garrett in the above captioned case, which was docketed on
January 10, 2020. I respectfully request a 30-day extension of time, to and including March 11,
2020, in which to file the brief in opposition currently due February 10, 2020.
A 30-day extension to and including March 11, 2020 will ensure that we have sufficient time to
fully analyze and respond to the arguments raised in the petition for writ of certiorari in this case.
Sincerely,

Michael H. McGinley
cc:

All counsel of record

